APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Third Circuit (April 23, 2020)..................... la
Memorandum Opinion of the United States
District Court for the Eastern District of
Pennsylvania (November 22, 2017)................ 10a
Order of the United States District Court for the
Eastern District of Pennsylvania
(November 8, 2017).......................................... 40a
Rehearing Order
Order of the United States Court of Appeals for
the Third Circuit Denying Petition for
Rehearing (June 11, 2020)............................... 42a
Other Documents
Second Superseding Indictment, Counts 1 and 6
(May 31, 2017)................................................. 44a
Jury Instruction, Relevant Excerpt

53a

Application and Affidavit for Search Warrant
(June 3, 2013).............................................

59a

Search Warrant
(June 3, 2013)

62a

Affidavit in Support of Search Warrants
(June 3, 2013)....................................

71a

App.la
OPINION* OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(APRIL 23, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA
v.
ANTHONY VETRI,
Appellant.
No. 18-2372
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-15-cr-00157-002)
District Judge: Honorable Gerald J. Pappert
Before: SMITH, Chief Judge, HARDIMAN, and
KRAUSE, Circuit Judges.
HARDIMAN, Circuit Judge.
Throughout the late 2000s, licensed pharmacist
Mitesh Patel illegally supplied several men with oxy­
codone to sell on the streets. Two of those men
included Patel’s business partner, Gbolahan Olabode,
and Appellant Anthony Vetri. This scheme began to
* This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

App.2a

unravel in 2010 when Patel, faced with dwindling
supply, distributed most of his pills to Olabode. Vetri
responded by asking one of his customers, Michael
Vandergrift, to murder Olabode in exchange for more
oxycodone pills. Vandergrift and Michael Mangold
gunned Olabode down in his driveway on January 4,
2012, while accomplice Allen Carter waited in the get­
away car.
A jury convicted Vetri of murder in violation of 18
U.S.C. § 924<j)(l) and conspiracy to distribute oxy­
codone in violation of 21 U.S.C. § 846. The District
Court sentenced Vetri to life in prison for the murder
and a consecutive term of 240 months’ imprisonment
for the drug conspiracy. He filed this timely appeal
raising five issues we will address in turn.
II
Vetri first claims the District Court erred when it
admitted into evidence a video in which Vetri jokes
with his three-year-old daughter about Olabode’s
murder. The Government found the video when, pur­
suant to a warrant, it searched Vetri’s cell phone and
found it embedded in a text Vetri sent to Vandergrift.
Vetri claims the evidence was obtained in violation of
his Fourth Amendment rights because the search
warrant was overbroad. According to Vetri, the affi­
davit supporting the warrant did not establish probable
1 The District Court had subject matter jurisdiction under 18
U.S.C. § 3231. We have jurisdiction under 28 U.S.C. § 1291 and 18
U.S.C. § 3742. “In reviewing a motion to suppress, we review a
district court’s factual finding for clear error, and we exercise de
novo review over its application of the law to those factual
findings.” United States v. Goldstein, 914 F.3d 200, 203 n.15 (3d
Cir. 2019) (internal quotation marks and citation omitted).

App.3a

cause to search his cell phones. He also claims that
even if the warrant was valid, the Government had no
right to view the video.
A
The body of the Government’s affidavit of probable
cause mentioned electronic devices but did not mention
cell phones. However, “Attachment B” to the affidavit
requested the seizure of “[clellular telephones (including
searching the memory thereof).” App. 437. According
to the affidavit, drug traffickers often use “electronic
equipment such as computers, telex machines . . . and
pagers to generate, transfer, count, record, and/or store”
information. App. 462 60(c) (emphasis added). The
Government also requested authority to “seize evidence
and instrumentalities of the schemes . . . whether
maintained in paper, electronic or magnetic form and
all computer systems required to retrieve such evidence
and instrumentalities.” Id. at TJ 61. The Magistrate
Judge incorporated part of this affidavit when issuing
the search warranty finding probable cause for the
search and seizure of the items listed in “Attachment
B.” App. 433.
Vetri claims the affidavit’s failure to specifically
mention cell phones in its body precludes their seizure.
He argues the affidavit supported probable cause that
evidence of criminal activity might be found in “other
kinds of electronic equipment” but “was less than ‘bare
bones’ when it came to cell phones.” Vetri Br. 19
(quoting United States v. Leon, 468 U.S. 897, 915, 923
n. 24 (1984)). Vetri also notes that none of the support­
ing confidential sources stated he owned or used cell
phones. So, he concludes, the affidavit did not provide

App.4a

probable cause to issue a search warrant to search his
cell phones, and thus was overbroad.
We hold the warrant was not overbroad. Probable
cause existed because the totality of the circumstances
suggested “there [was] a fair probability that contra­
band or evidence of a crime [would] be found” in Vetri’s
cell phones. Illinois v. Gates, 462 U.S. 213, 238 (1983).
While it is perplexing that the body of the affidavit did
not mention cell phones, the qualifier “such as” shows
the list was merely illustrative of the kinds of
electronic equipment drug traffickers might use. See
Bragdon v. Abbott, 524 U.S. 624, 639 (1998). Cell
phones are plainly among that broader category of
electronic equipment. And Attachment B specifically
mentioned them, so the warrant authorized the search
and seizure of Vetri’s cell phones.
B
Vetri next argues that even if the warrant author­
ized the seizure of his cell phones, the District Court
still should have suppressed the video because it was
not in plain view. The relevant precedent on this point
is United States v. Stabile, 633 F.3d 219 (3d Cir. 2011).
In that case, a magistrate judge issued a warrant to
search computer hard drives for evidence of financial
crimes and agents found child pornography. We held
there was no Fourth Amendment violation because
the “incriminating character of the” child pornography
file names was “immediately apparent.” Id. at 242.
Vetri distinguishes Stabile by noting that here the
video’s thumbnail is an innocuous picture of his
daughter. Therefore, Vetri argues, the agents were not
permitted to play the video to learn of the incrimin­
ating content.

App.5a
We are unpersuaded by this argument. As we have
recognized, law enforcement can perform a cursory
review of all electronic files because “criminals can
easily alter file names and file extensions to conceal
contraband.” Id. at 239. Here, the agent played the
video “to view its contents because a thorough . . .
search requires a broad examination of files on the
[phone] to ensure that file[s] . .. have not been manip­
ulated to conceal their contents.” Id. at 241. On Vetri’s
view, a criminal could insulate incriminating videos
from search by presenting them as innocuous images.
Here, the agent did not “unreasonably expand the scope
of his search . . . viewing [the video’s] contents.” Id.
The agent seeking evidence of financial and drug
trafficking crimes had cause to believe Vetri conspired
with Michael Vandergrift to distribute oxycodone.
While performing a targeted search of Vetri and
Vandergrift’s conversations, the agent uncovered the
video. Here, the video was sent between coconspirators,
so there was “no practical substitute for actually
looking in many (perhaps all) folders and sometimes
at the documents contained within those folders. . . . ”
Id. at 239 (quoting United States v. Burgess, 576 F.3d
1078, 1094 (10th Cir. 2009)). Therefore, we hold the
District Court did not err when it denied Vetri’s
motion to suppress evidence.
II
Vetri next claims the evidence at trial was insuf­
ficient to support his conviction of murder under 18
U.S.C. § 924(j)(l). The District Court instructed the
jury that both Vetri and Vandergrift could commit
murder by personally committing the offense; by
aiding and abetting another person in committing the

App.6a

offense; or as co-conspirators under Pinkerton v.
United States, 328 U.S. 640 (1946). To prove Pinkerton
liability, the Government had to show Vandergrift’s
use of a firearm to commit murder was reasonably
foreseeable to Vetri and within the scope and in
furtherance of the drug conspiracy. Id. at 647-48 (1946);
United States v. Casiano, 113 F.3d 420, 427 (3d Cir.
1996).
The Government adduced evidence showing Vetri
knew Michael Mangold would be participating in the
murder and would be using a gun. Vetri had warned
Vandergrift that Olabode was a bodybuilder who
carried a gun. Vetri also knew Vandergrift had access
to guns because Vandergrift had bought guns during
a trip to Kansas. And Vetri expressed no surprise that
Vandergrift and Mangold had used firearms and
asked the men what they had done with the guns the
day after the murder. Viewing the evidence in the light
most favorable to the Government, “we conclude that
the jury’s verdict did not ‘fall below the threshold of
bare rationality.”’ United States v. Caraballo-Rodriguez,
726 F.3d 418, 432-33 (3d Cir. 2013) (quoting Coleman
v. Johnson, 566 U.S. 650, 656 (2012)). A reasonable
juror considering these pieces of evidence in their
totality could find that Vetri foresaw that Vandergrift
would use a gun to murder Olabode.

Ill
Vetri next argues the District Court abused its
discretion when it allowed the Government to offer
evidence of Vandergrift and Carter’s straw purchase
of firearms unrelated to the murder to establish
knowledge and foreseeability. iSeeFed. R. Evid. 404(b).

App.7a
Vetri argues that the straw purchase was not
relevant, so its probative value was substantially out­
weighed by the risk of unfair prejudice. Id. “Evidence
is relevant if: (a) it has any tendency to make a fact
more or less probable than it would be without the
evidence; and (b) the fact is of consequence in deter­
mining the action.” Fed. R. Evid. 401. If Vetri knew
Vandergrift had easy access to firearms, it is more
probable that he would foresee Vandergrift using a
firearm to carry out the murder. Here, Carter testified
that he and Vandergrift purchased four firearms in
Kansas, including a Baby Desert Eagle firearm
specifically for Vetri. App. 1387. Eric Maratea, another
Vetri acquaintance, testified that Vetri referred to
Vandergrift, Mangold and Carter as “his guys and
that they work for him. They . . . buy guns for him,”
specifically Baby Desert Eagles. App. 1651. This
evidence tends to show that Vetri knew Vandergrift had
access to firearms for the murder because Vandergrift
was supplying Vetri with a specific type of firearm.
The probative value is high because this evidence
was essential to prove the knowledge^ element of
Pinkerton liability, because no witness testified that
Vetri knew that Vandergrift would use a gun to
murder Olabode. And while there is the risk of some
prejudice, as the District Court found, “[t]he Kansas
trip [did] not involve any violent acts that may [have]
weighted] heavily in the jurors’ minds.” App. 18. We
therefore hold that the District Court’s finding that
the risk of prejudice did not substantially outweigh
the probative value of the evidence is not “clearly con­
trary to reason.” United States v. Butch, 256 F.3d 171,
175 (3d Cir. 2001).

App.8a
IV
Vetri next contends that the District Court should
not have admitted Vandergrift’s statements to a
cellmate that implicated Vetri in the murder of
Olabode. He claims Vandergrift’s out-of-court state­
ments that he had murdered Olabode for Vetri in
exchange for pills were not admissible under Rule
804(b)(3) as statements against Vandergrift’s penal
interest because they were not self-inculpatory.
Our review of the record leads us to conclude that
the District Court did not abuse its discretion when it
admitted the statements because they inculpated both
Vandergrift and Vetri. Vandergrift’s statements to his
cellmate did not try to “shift blame or curry favor,”
and the Government corroborated those statements
through additional evidence and testimony.
Williamson v. United States, 512 U.S. 594, 603, 605
(1994). Nor were the statements separate and sever­
able, because they described Vetri’s role in the murder
plot, including Vandergrift’s motive, how he located
Olabode, and how he carried out the murder.
V
Finally, Vetri argues that the District Court erred
by treating the Sentencing Guidelines as presumptively
reasonable. Because Vetri did not object in the District
Court, we review this issue for plain error. United
States v. Flores-Mejia, 759 F.3d 253, 254 (3d Cir. 2014)
(en banc).
Vetri has failed to carry his high burden. We are
unpersuaded that the Court clearly erred or that, “but
for the error, the outcome of the proceeding would
have been different.” United States v. Azcona-Polanco,

App.9a

865 F.3d 148, 151 (3d Cir. 2017) (internal quotation
marks and citations omitted). While the Court used the
words “presumptively reasonable” to describe the guide­
lines, App. 2137, the record shows that it considered
the Guidelines to be only one factor in fashioning a
reasonable sentence. After hearing argument from
both parties, the Court considered: the serious nature
of Vetri’s crime, his history and characteristics, the
need for a life sentence to promote respect for the law
and to protect the public from Vetri, whether another
sentence would be appropriate, and Vetri’s utter lack
of remorse. Only after considering “the law and the
facts and the sentencing guidelines and the statutory
[Section 3553(a)] factors” did the Court impose a
sentence of life imprisonment plus 240 months. App.
2140. The District Court did not commit error, plain
or otherwise, in sentencing Vetri.
* * *

For the reasons stated, we will affirm the District
Court’s judgment of sentence.

App.lOa
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
(NOVEMBER 22, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA,
v.
ANTHONY VETRI,
MICHAEL VANDERGRIFT,
Defendants.
Criminal No. 15-157
Before: Gerald J. PAPPERT, Judge.
PAPPERT, J.
Anthony Vetri and Michael Vandergrift have been
charged in a Second Superseding Indictment with
conspiracy to distribute Oxycodone and with using a
firearm to commit murder in relation to the drug
trafficking conspiracy. (ECF No. 82.) Trial begins on
November 29 and Vetri filed a motion to suppress
evidence obtained as a result of the search of his home
pursuant to a warrant issued by Magistrate Judge
Jacob P. Hart. (ECF No. 109.) The Court held oral
argument on the motion on November 1 (ECF No. 131),

App.lla

and conducted an evidentiary hearing and heard addi­
tional argument on November 15 (ECF No. 161). The
Court denies Vetri’s motion for the reasons that
follow.

I.
At the evidentiary hearing, both Special Agent
Charles Doerrer of the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) and Special Agent
Matthew Yaeger of the Federal Bureau of Investigation
(FBI) testified. (See Nov. 15, 2017, Hr’g Tr.) The Court
found the testimony of both agents credible and the
search warrant and affidavit of probable cause were
admitted into evidence as Government Exhibit 1.
On June 3, 2013, Judge Hart issued the warrant
to search Vetri’s home at 403 Marsden Avenue, Essington, PA, 19029, based on the affidavit of probable cause
submitted by Special Agent Doerrer. (Gov’t Ex. 1,
Search Warrant.) Special Agent Doerrer has been with
ATF since 2003 and before that worked as a police
officer for four and a half years. (Nov. 15, 2017, Hr’g
Tr. at 9-10; Gov’t Ex. 1, Search Warrant Affidavit Tf 1.)
Doerrer has been an affiant for approximately thirty
federal search warrants, which have resulted in the
seizure of contraband, and has conducted and
participated in numerous investigations, which have
resulted in the arrest and prosecution of individuals
for violations of federal law, including drug trafficking
and money laundering. (Id.)
At the time the warrant was issued, Special Agent
Doerrer was assigned to the Violent Crimes group
and, since April 2012, had been a member of a multi­
agency task force comprised of ATF, FBI, Drug Enforce­
ment Agency (DEA), and Internal Revenue Service

App.l2a

(IRS) agents. (Nov. 15, 2017, Hr’g Tr. at 9-10; Gov’t
Ex. 1, Search Warrant Affidavit at U 4.) The task force
was conducting a broad investigation into various
individuals, including Vetri, for violations of numerous
state and federal crimes, including conspiracy to dis­
tribute large amounts of Oxycodone, insurance fraud,
wire fraud, mail fraud and tax fraud. {Id)
The affidavit submitted in support of the search
warrant was extensive, including detailed facts on a
number of alleged crimes over a more than four-year
period. It contained evidence of a continuous drug­
trafficking conspiracy, lasting from approximately
2009 through at least 2012 {id. at 2-8), insurance
fraud perpetrated by Vetri from approximately 2009
through 2013 {id. at 8-12), tax evasion for the years of
2009 through 2011 {id. at 12-14), and bank fraud for
various loan applications submitted between 2009
and 2010 {id. at 14-16).
A.
Information on the alleged drug conspiracy was
provided by two informants who sold Oxycodone pills
for Vetri—Vandergrift and Anthony Perone—and one
informant who received pills from Vetri—Louis Santoleri.l (Gov’t Ex. 1, Search Warrant Affidavit at 3-8.)
Specifically, the affidavit provided that, at least as early
as 2009, Vetri began illegally selling large amounts of
Oxycodone he received from a pharmacist named

1 The affidavit submitted in support of the search warrant applica­
tion lists the informants as CS2, CS3 and CS4. A supplemental
document submitted by Special Agent Doerrer, the Double-Blind
Affidavit for Search Warrant, makes clear that CS2 is Angelo
Perone, CS3 is Michael Vandergrift, and CS4 is Louis Santoleri.

App.l3a

Mitesh Patel.2 {Id. at f 6.) Perone, who had known
Vetri for approximately ten years, said that Vetri
approached him in early or mid-2009 and asked him
to sell Percocet and Oxycodone pills. {Id. at If 7.) Perone
agreed and shortly thereafter enlisted Vandergrift’s
help selling the drugs. {Id. at f 8.) Vandergrift sold
pills for Perone from that time until approximately
early to mid-2011, excluding a period of time Vander­
grift was in prison. {Id. at
9, 17, 18.)
Perone provided the agents with specific informa­
tion on the nature and extent of the group’s drug sales.
He told the agents approximately how many pills he
sold for Vetri {id. at ff 9, ll), how much Vetri charged
him for the pills {id. at ]f 9), how many pills Vetri was
receiving from his supplier Patel {id. at Tf 10), that
Vetri’s supply was not always consistent {id. at Iff 9,
ll), that he would pick up the pills from Vetri’s house
{id, at If 12), that Vetri would regularly empty a
manufacturer’s bottle of pills into a plastic bag before
giving them to Perone {id), and that the pills bore the
score marks of “M” and ‘V” {id. at If 13). DEA Diversion Investigator Scott Davis confirmed that the
ordering patterns from Patel’s pharmacies indicated
that he received Oxycodone pills with “M” and “V”
score marks. {Id) Further, Vetri told Perone that
Patel had a business partner at Dava Pharmacy
named Gbolahan Olabode and that Patel was also
providing Olabode with pills, which Vetri believed was

2 Patel was charged in the Second Superseding Indictment as a
co-conspirator in the drug trafficking conspiracy and in four
additional counts for money laundering and tax evasion. (ECF
No. 82.) On November 15, 2017, Patel pleaded guilty to all counts.
(ECF Nos. 164, 166.)

App.l4a

the reason he could not get more pills from Patel. (Id.

at U 14.)
Perone stopped selling for Vetri in early 2011.
Because Vetri’s supply was sporadic, Perone developed
another source of pills in Florida in late 2009 or early
2010. (Gov’t Ex. 1, Search Warrant Affidavit If 11.) On
a trip to Florida to purchase pills in February 2011,
Perone, Vandergrift and another co-conspirator were
stopped by DEA agents. (Id. at 1 15.) Perone believes
that Vetri then cut off his supply out of fear that he
was cooperating with the DEA. (Id) Perone purchased
pills from Vetri on only one or two occasions following
the stop and knew that Vandergrift began going
directly to Vetri for pills. (Id)
Vandergrift’s information corroborated Perone’s.
Vandergrift told agents that he began selling Oxycodone
for Perone sometime after he was released from prison
in 2008 and continued until he went back to jail in
July 2009. (Id. at H 17, 18.) During that time, Vetri
was Perone’s pill supplier and Vandergrift received
pills directly from Vetri on at least one occasion,
paying him with money Perone had provided. (Id. at
If 17.) Vandergrift resumed selling Oxycodone for Per­
one when he was released from prison in 2010 and
continued until they were stopped by DEA agents in
Florida in 2011. (Id. at 1 18.)
After the stop, Vandergrift stopped speaking to
Perone and began obtaining pills directly from Vetri.
(Id. at IfTf 18, 19.) Vandergrift told agents that Patel
was Vetri’s supplier, that Vetri’s supply was incon­
sistent and that he received 1,000 pills from Vetri in
manufacturer’s bottles on at least two occasions. (Id.
at If 19). When Vandergrift sought to obtain pills from
Vetri on a regular basis, Vetri told him that his supply

App.l5a

from Patel was limited because Patel was also selling
pills to a man named “Bo,” who agents knew to be
Gbolahan Olabode. {Id.) Vetri told Vandergrift that Bo
was paying “rock bottom” for the pills and that Vetri
could make Patel more money if Patel sold more of his
supply to Vetri instead of Bo. {Id) Vandergrift last
obtained pills from Vetri prior to January of 2012,
when he was again taken into custody. {Id)
Santoleri provided further corroboration of the
drug conspiracy. Santoleri is the former husband of
Ann Marie Park, Verti’s girlfriend at the time the
warrant was issued. (Gov’t Ex. 1, Double-Blind Affidavit
for Search Warrant at 2.) Vetri was Santoleri’s Percocet supplier. On a number of occasions while at
Vetri’s house, Santoleri saw Perone drop off “a lot” of
money and Patel deliver prescriptions. (Gov’t Ex. 1,
Search Warrant Affidavit f 20.) On two or three occa­
sions, Vetri gave Santoleri Percocets in pharma­
ceutical bottles immediately after Patel left Vetri’s
house. {Id. at J 22.) Further, on at least one occasion,
Vetri supplied Santoleri with a bottle of Percocets
bearing a “Good Neighbor Pharmacy” sticker, which
Santoleri knew to be from Patel’s Dava Pharmacy. {Id.
at 21.) Santoleri also told the agents that Vetri had “a
safe hidden in the wall behind a picture in his
[house].” {Id. at 20.)
B.
The affidavit of probable cause also contained
detailed evidence of mail and wire fraud related to
Vetri’s filing of false insurance claims for properties
he owned. Between 2009 and 2012, Vetri filed insurance
claims for vandalism and arson on three separate
properties. In January 2009, Vetri’s rental property at

App.l6a
1359 Adair Road, Brookhaven, Pennsylvania, was
reportedly vandalized. (Gov’t Ex, 1, Search Warrant
Affidavit | 29.) He filed an insurance claim based on
the reported damage and received a check for approx­
imately $40,000 from his insurance company. {Id. at
1f 30.) Vetri hired Santoleri to repair the property for
about half that amount. {Id, at U 31.) Santoleri was
immediately suspicious about the cause of the damage
because he had never seen a property destroyed that
severely. {Id) Santoleri asked if Vetri was behind the
vandalism—Vetri laughed and did not deny involve­
ment. {Id.) Santoleri’s suspicions were later confirmed
when he overheard Vetri tell someone that he hired
two Hispanic men to vandalize the property. {Id.)
In December 2011, Vetri’s residence at 2703 Bethel
Road, Chester, Pennsylvania, was destroyed by arson.
{Id. at If 34.) Vetri filed an insurance claim and
received checks in the mail totaling approximately
$67,000. {Id. at f 35.) Vandergrift said that he burned
down the property at Vetri’s direction for $2,000. {Id.
at ^f 32.) Vetri asked Vandergrift to burn the house so
that he could file an insurance claim and “get even
with” his insurance company. {Id.) As part of the
scheme, Vetri had Vandergrift sign a fictitious lease
so that he could claim loss of rental income in addition
to physical damage. {Id.) Vandergrift committed the
arson by pouring gasoline in each bedroom and in the
hallway down the stairs and then throwing a burning
stick into the house. {Id. at 1f 33.) Special Agent
Doerrer reviewed pictures of the fire and observed
obvious gasoline pour patterns that were consistent
with Vandergrift’s description of how he committed
the crime. {Id.)

App.l7a
In January 2012, another of Vetri’s rental prop­
erties, 204 Walnut Street in Darby, Pennsylvania, was
destroyed by fire. (Id. at f 37.) The cause of the fire
was classified as “undetermined” because the officers
could not complete their investigation, but Special
Agent Doerrer stated that he believed arson to be the
cause based on information provided by Vandergrift.
(Id.) At some point after Vandergrift started the fire at
the Chester, Pennsylvania, property, Vetri asked him
to burn down the Walnut Street house. (Id. at If 36.)
Vetri told Vandergrift that he had put too much money
into the property, was unable to rent it out, and
intended to burn it down for the insurance proceeds.
(Id.) Vandergrift had previously met Vetri at the
property to purchase pills and saw that the residence
had been “fixed up.” (Id.) Shortly after the request,
Vandergrift was arrested. When Vandergrift told the
agents about Vetri’s request, he was unaware that the
property had ultimately burned down. (Id. at 36
n.10.) Vetri again submitted an insurance claim for
the property, including for lost income, and on April 3,
2013, the Erie Insurance Company mailed Vetri two
checks totaling approximately $121,000 in partial
payment for structural damage and for lost rent for
the year of 2013. (Id. at
38-39.)
C.
The affidavit further contained an analysis of
Vetri’s tax records for 2009 through 2011,3 which lead
the agents to believe that Vetri was committing tax
3 Agents did not analyze Vetri’s tax records for 2012 because they
had not been filed at the time of the search warrant application.
Vetri had requested and received an extension to file until
October 15, 2013. (Gov’t Ex. 1, Search Warrant Affidavit U 47.)

App.l8a
fraud. IRS Special Agent Jeffrey Brown reviewed the
records, (Gov’t Ex. 1, Search Warrant Affidavit 1f 40.)
In all three years, Vetri reported rental and interest
income. In 2010 only, Vetri reported income from A&J
Electrical and, in 2010 and 2011, Vetri reported
nominal amounts of “Other Income.” Vetri did not
report any income derived from his suspected illegal
activities, namely drug sales and insurance fraud. (Id.

at 1f 42.)
In 2009, Vetri’s deductions exceeded his total
income, indicating that he spent more money than he
earned. These expenditures did not account for every­
day living expenses, such as food, clothing, and trans­
portation. (Id. at If 44.) In 2010, Vetri’s income ex­
ceeded his losses by only $21,591, providing Vetri with
only a modest amount of money to live on. (Id. at If 46.)
However, Vetri’s reported interest income in 2010
suggests that he deposited a substantial amount of
money into his savings account that year. Agent
Brown determined a savings increase of $23,200 to
$46,200 dollars, higher than Vetri’s purported net
earnings for that year. (Id. at 1f 45 n.13.) The disparity
further suggested to Special Agent Doerrer that Vetri
had unreported illegal sources of income.
Other financial records provided additional evi­
dence that Vetri was committing bank fraud. In various
car loan applications submitted in 2009 and 2010,
Vetri reported total annual income of $200,000 and
approximately $170,000, respectively, significantly
greater than the amounts reported on his tax returns.
(Id. at If If 50, 51.) Further, in 2010, Vetri paid down a
car loan by approximately $21,648 in spite of reporting
to the IRS net earnings of only $21,591. (Id. at 1f 52.)

App.l9a

D.
Based on this information, as well as additional
information provided by Special Agent Doerrer in the
affidavit, the agents believed there was probable
cause that evidence of Vetri’s fraudulent activities
would be located in his home. Doerrer stated that based
on his training and experience, as well as the training
and experience of other agents with whom he works,
Vetri’s federal income tax returns would need to be
reconstructed to determine his true tax liability and
the scope of his fraud. (Gov’t Ex. 1, Search Warrant
Affidavit 1 57.) Doerrer further stated that “[i]t is
common for individuals who commit tax and other
frauds to maintain books, records ... receipts relating to
the underreported income and . . . proceeds of fraud­
ulent schemes and that such documents are maintained
where these individuals have ready access to them,
including their businesses or [homes].” {Id. at 1 60a.)
Public records as well as Vetri’s bank statements con­
firmed that Vetri resided in and conducted his busi­
nesses from his home at 403 Marsden Avenue. {Id. at
11 54, 55, 58.)
The warrant application and affidavit sought per­
mission to search Vetri’s home and seize the items
“described with particularity in Attachment B.” {Id. at
1 5; see also Gov’t Ex. 1, Search Warrant Application.)
The items to be seized relate almost exclusively to
documentary evidence of financial crimes. For example,
Attachment B calls for the seizure of “books, records,
invoices, receipts, records of real estate transactions,
loans, mortgages, bank statements and related
records” evidencing drug trafficking, malicious use of
explosive materials, mail fraud, wire fraud, bank
fraud, and tax evasion; “photographs, records and

App.20a
documents .. . containing information evidencing”
drug trafficking, malicious use of explosive materials,
mail fraud, wire fraud, bank fraud, and tax evasion;
evidence of all income; evidence of all expenditures;
Federal tax forms; records of insurance claims; and
financial records for several of Vetri’s businesses.
(Gov’t Ex. 1, Search Warrant Application, Attachment
B, at 1-4.) Further, the application requested permis­
sion to seize and search “any and all computers that
may contain records requested in this Attachment”
and “cell phones (including searching the memory
thereof).” {Id. at fU 3, 20.) The items listed were said
to be instrumentalities, evidence, or fruits of tax eva­
sion, mail fraud, wire fraud, bank fraud, and money
laundering. (Gov’t Ex. 1, Search Warrant Application.)
Special Agent Doerrer presented the affidavit to
Assistant United States Attorney Ashley Lunkenheimer
for approval before bringing the warrant application
and affidavit to Judge Hart. (Nov. 15, 2017, Hr’g Tr.
at 13.) After reviewing the application and affidavit,
Judge Hart approved the search warrant for Vetri’s
home. {Id)
E.
The warrant was executed on June 4, 2013. {Id)
During the search, agents seized seven cell phones
and two iPads, {Id. at 23.) Doerrer turned the cell
phones and iPads over to Special Agent Matthew
Yaeger of the FBI. {Id, at 13.) Special Agent Yaeger is
a lawyer and has been a member of the FBI for
approximately 12 years. {Id. at 17.) He is a member of
the Violent Crimes Squad and the Evidence Response
team, a group of agents and support staff who are
trained to process crime scenes and collect evidence.

App.21a

{Id. at 17-18.) Special Agent Yaeger testified that two
of the seven phones were “older-model” Samsung
phones, the kind you could buy off the rack at Target
(not modern touchscreen smartphones), and the other
five were iPhones. {Id. at 23-24.) He described the
iPhones as having larger data storage capacity and
more functions than the Samsung phones. {Id. at 24.)
All data, with the exclusion of music files, was extracted
from the phones and placed onto disks for review.4 {Id.
at 29.)
Special Agent Yaeger, along with others, reviewed
the data extracted from the cell phones. {See Nov. 15,
2017, Hr’g Tr, 33; Gov’t Supp. Resp. in Opp’n at 4,
ECF No. 143.) He testified that for each phone, he
received a report file along with the phone’s data files.
(Nov. 15, 2017, Hr’g Tr. at 34.) He began his search of
each phone by reviewing the report file which is usually
organized by category, such as address book, note
files, SMS messages, MMS messages and web history.
{Id) Yeager testified that he went “category by cate­
gory and look[ed] at the files to see if anything was
covered by the warrant.” {Id) The search included a
search of and for text messages, an address book,
photographs, and videos, all of which were specified in
the warrant as items to be seized as evidence of the
commission of the enumerated crimes. {See Gov’t
Supp. Resp. at 4.)

4 With respect to the data on two of Vetri’s phones, Yaeger
reviewed redacted data. The agents had reason to believe that
Vetri was frequently communicating with a lawyer and arranged
for a separate taint team to review all of the cell phone data for
privileged communications prior to the investigatory search.
(Nov. 15, 2017, Hr’g Tr. at 30-33.)

App.22a
Agents found various items on Vetri’s cell phones
which he now seeks to suppress, including a photo of
a package addressed to Patel’s pharmacy, text messages
between Vetri and Vandergrift and between Vetri and
Patel relating to the drug trafficking conspiracy, and
information arguably pertaining to the murder of one
of the alleged co-conspirators, Olabode. (See id. at 5.)
Further, during review of the text messages between
Vetri and Vandergrift, agents recovered a video Vetri
sent to Vandergrift shortly after Olabode’s murder in
January 2012. In the video, a voice asks “What did the
gangsters do to Bo?” Vetri’s two year old daughter
says, “Boom, boom, boom, boom.” This is then
repeated, to which the voice says, “You’re funny.” The
video concludes with the voice saying, “Say, ‘Bye
Mike,’ and Vetri’s daughter repeating the phrase. {Id.
at 4-5.) On a separate phone, agents found a copy of
Olabode’s driver’s license. {Id. at 5.)
II.
Under the Fourth Amendment, subject to certain
exceptions, search and seizures must be effectuated
pursuant to a warrant based on probable cause. See,
e.g., United States v. Golson, 743 F.3d 44, 50-51 (3d
Cir. 2014) (citing United States v. Robertson, 305 F.3d
164, 167 (3d Cir. 2002)). To issue a warrant based on
probable cause, an impartial judicial officer, in this
case the magistrate judge, must determine that, in
light of the totality of the circumstances, “there is a
fair probability that contraband or evidence of a crime
will be found in a particular place.” Illinois v. Gates,
462 U.S. 213, 238 (1983); see also Riley v. California,
134 S. Ct. 2473, 2482 (2014) (“[A] warrant ensures
that the inferences to support a search are ‘drawn by

App.23a
a neutral and detached magistrate instead of being
judged by the officer engaged in the often competitive
enterprise of ferreting out crime.”’); United States v.
Conley, 4 F.3d 1200, 1205 (3d Cir. 1993).
Affidavits of probable cause are to be assessed “in
[their] entirety and in a common sense and non­
technical manner.” Conley, 4 F.3d at 1206 (citing Gates,
462 U.S. at 230-31). Probable cause can be and often
will be “inferred by ‘considering the type of crime, the
nature of the items sought, the suspect’s opportunity
for concealment and normal inferences about where a
criminal might hide [the property].”’ United States v.
Williams, 124 F.3d 411, 420 (3d Cir. 1997) (quoting
Conley, 4 F.3d at 1207). The issuing judge may rely on
the experience of the officer and give ‘“considerable
weight’” to the officer’s conclusions “‘regarding where
evidence of a crime is likely to be found.”’ United States
v. Whitner, 219 F.3d 289, 296 (3d Cir. 2000) (quoting
United States v. Caicedo, 85 F.3d 1184, 1192 (6th Cir.
1996)).
A magistrate judge’s determination of probable
cause should be paid “great deference.” Conley, 4 F.3d
at 1205 (emphasis in original) (quoting Spinelli v.
United States, 393 U.S. 410, 419 (1969)). Thus, review­
ing courts are not to conduct de novo reviews for
probable cause; rather, their duty to is “‘to ensure that
the magistrate had a substantial basis for . .. conclud­
ing] that probable cause existed.’ Golson, 743 F.3d at
53 (modifications in original) (quoting Conley, 4 F.3d
at 1205); see also Gates, 462 U.S. at 236. Courts are
confined “‘to the facts that were before the magistrate
judge ... and [do] not consider information from other
portions of the record.” United States v. Hodge, 246
F.3d 301, 305 (3d Cir. 2001) (quoting United States v.

App.24a
Jones, 994 F.2d 1051,1055 (3d Cr. 1993)). To prevail, the
defendant bears the burden of establishing that his or
her Fourth Amendment rights were violated. United
States v. Acosta, 965 F.2d 1248, 1257 n.9 (3d Cir.
1992) (citing Rakas v. Illinois, 439 U.S. 128, 130 n.l
(1978)).
III.
Vetri’s motion seeks to suppress all information
recovered from the search of his house, including the
search of his cell phones; he does not specify any
particular information or evidence. The Government,
however, provided the Court with a description of
several relevant items recovered from the phones. At
the November 15 hearing, Vetri’s counsel confirmed
that he was seeking to suppress all of the evidence
identified by the Government, including, but not
limited to, the video of Vetri’s daughter and the picture
of Olabode’s driver’s license. (Nov. 15, 2017, Hr’g Tr.
at 4-6.)
A.
Vetri first argues that, for several reasons, there
was no probable cause to search his home. He contends,
focusing on the evidence of drug trafficking, that the
information in the affidavit was both stale and
uncorroborated. He further claims that the search,
which was predicated on financial crimes, was pretextual and that the agents were really looking for
evidence of drug trafficking. Lastly, Vetri appears to
argue that, even if there was probable cause to search
for evidence of financial crimes, the affidavit lacked
the required nexus between the facts and Vetri’s home
such that it was unreasonable to believe that evidence

App.25a
of the financial crimes would be found there. None of
these arguments succeed. The affidavit of probable
cause clearly provided a substantial basis for Judge
Hart to conclude that evidence of the financial crimes
described would be found in Vetri’s home.
The affidavit described at length various types of
criminal conduct, focusing mainly on financial crimes.
Consistent with the nature of the crimes described,
the affidavit sought permission to search for financial
records showing Vetri’s income or expenses—evidence
that would enable the officers to understand the extent
of these crimes. The affidavit contained evidence that
Vetri used, and was presently using, his home address
for receipt of business and financial records, including
bank statements for at least eight different bank
accounts. (Gov’t Ex. 1, Search Warrant Affidavit 54.)
Based on his training and experience, Special Agent
Doerrer represented that it is common for individuals
who commit tax evasion and other frauds to keep
records at their homes and businesses. {Id. at If 60a.)
Considering the affidavit in its entirety and in a
common sense manner, Judge Hart had a substantial
basis for concluding that financial records or other
evidence of Vetri’s financial crimes could be found in
his home.
B.
Vetri’s argument that the information contained
in the affidavit was “too stale” focuses mainly on the
evidence of drug trafficking. He claims that “this is a
pill case” and that the tax evasion described in the
warrant was de minimus and ultimately not charged.
(Mot. at 7-8.) Vetri argues that the last evidence of
drug trafficking occurred, at the latest, in January

App.26a
2012, a full year before Special Agent Doerrer applied
for the warrant. (SeeNov. 15, 2016, Hr’g Tr. at 60.) He
further questions the relevance of the receipt of the
fraudulent insurance proceeds through the mail at his
home. (Mot. at 15 (“[W]hy would it matter if a claim
check was mailed to his residence.”).) This argument
ignores the continuous nature of the financial crimes,
which served as the basis for the warrant. Further, his
argument that the warrant was pretextual fails to view
the warrant in its entirety, in a common sense
manner, and in light of what Judge Hart knew at the
time the warrant was issued.
The age of information supporting a warrant
application is relevant to the probable cause assess­
ment. “If information is too old, it may have little
value in showing that contraband or evidence is still
likely to be found in the place for which the warrant
is sought.” Williams, 124 F.3d at 420 (citing United
States v. Harvey, 2 F.3d 1318, 1322 (3d Cir. 1993)).
However, staleness is not determined solely by count­
ing up months and is of ‘less concern” when the
criminal activity is continuous. See id. (finding staleness
of information “less important in the probable cause
analysis” where gambling operation spanned nearly
thirty years); see also United States v. Harris, 482 F.2d
1115, 1119 (3d Cir. 1973) (“Protracted and continuous
activity is inherent in a large-scale narcotics opera­
tion”). As the Third Circuit Court of Appeals has ex­
plained, because probable cause is based “on a number
of variables, such as the nature of the crime, of the
criminal, of the thing to be seized, and of the place to
be searched,” the passage of time is less significant
when the “activity is of a protracted and continuous
nature.” Williams, 124 F.3d at 420; see also United

App.27a
States v. Shields, 458 F.3d 269, 281 n.7 (3d Cir. 2006)
(noting that information supporting the warrant was
not stale after a nine month gap because evidence
shows that individuals tend to keep child pornography
images and “information suggesting a ‘continuing
offence’ is more durable than information of discrete
offenses”).
In light of the nature of the financial crimes
described and the evidence sought, Judge Hart had a
substantial basis for concluding that the information
contained in the affidavit was not stale. As in Williams,
“the primary evidence sought was records, which are
generally created for the very purpose of preservation.”
124 F.3d at 421. Special Agent Doerrer stated that in
order to determine the true scope of the fraud and tax
evasion, agents would need to “identify all sources and
all amounts of any unreported income and proceeds of
fraudulent schemes . . . [and] reconstruct Vetri’s
federal income tax returns for the relevant years.”
(Gov’t Ex. 1, Search Warrant Affidavit If 57.) Further,
the agents had information that Vetri had a safe in
his house, indicative of prolonged storage. (Id. at 20.)
Although the evidence of drug trafficking may
have been dated when viewed in isolation, the full
breadth of the criminal activity described in the war­
rant was continuous and on-going, spanning over four
years and leading up to the execution of the warrant.
The affidavit described continuous drug trafficking,
mail and wire fraud predicated on false insurance
claims, as well as tax evasion, bank fraud and potential
money laundering. The agents had current information
that the mail and wire fraud was ongoing. Approx­
imately two months before the warrant was executed,
Vetri received the proceeds of an allegedly fraudulent

App.28a

insurance claim via U.S. mail, in part for lost rental
income for 2013. (Id. at 39.) As the central objective of
the fraud, receipt of the proceeds at his home is
relevant to the probable cause analysis which looks to
the totality of the circumstances. Further, Vetri
received an extension of time to file his 2012 federal
tax return, suggesting that financial records to support
his 2012 tax return could presently be located in his
home. (Id. at 47.) This current information, as well as
the continuous nature of the suspected financial crimes,
provided a substantial basis for concluding that finan­
cial records and evidence required to reconstruct
Vetri’s true tax liability for the relevant years would
be found in his house.
The warrant application made no attempt to
“disguise” or conceal the fact that the agents were
interested in Vetri’s drug trafficking activity. In fact,
one of the bases for the agents’ belief that Vetri was
committing tax evasion and other financial crimes, such
as money laundering, was the evidence of Vetri’s illegal
drug sale income. The agents had a basis to believe
that Vetri made, at minimum, $126,500 in illegal drug
sales between 2009 and 2012 and that Vetri did not to
include this income in his federal tax returns, yet
relied on this income when applying for loans. Evidence
of drug trafficking, which is a “specified unlawful
activity” that can support a money laundering charge,
was therefore an appropriate target of the warrant.
(See Nov. 15, 2016, Hr’g Tr. at 38.)
Further, Vetri’s argument that tax evasion is un­
charged is legally irrelevant, as he acknowledges. (Mot.
at 15 (“[A] hindsight view is not relevant to the finding
of probable cause ... ”).) Warrants are assessed on the
basis of the information available to law enforcement

App.29a
at the time the warrant was issued, not on the basis
of the subsequent charges. See Hodge, 246 F.3d at
305. Although the Government did not ultimately
charge Vetri with tax evasion or other financial crimes,
the information available to Special Agent Doerrer
when he applied for the search warrant provided a
substantial basis for Judge Hart to issue the warrant
authorizing a search for evidence of such crimes.
C.
Vetri’s argument that the confidential informants’
information was uncorroborated and unreliable is
plainly contradicted by the affidavit of probable cause.
“A magistrate may issue a warrant relying primarily
or in part upon the statements of a confidential
informant, so long as the totality of the circumstances
gives rise to probable cause.” United States v. Stearn,
597 F.3d 540, 555 (3d Cir. 2010). While the informant’s
veracity and basis for knowledge are both relevant to
the probable cause assessment, “‘these elements should
[not] be understood as entirely separate and inde­
pendent requirements to be rigidly exacted in every
case.’” Id. (modifications in original) (quoting Gates,
462 U.S. 230).
Judge Hart had a substantial basis for crediting
the testimony of the confidential informants when
assessing probable cause. Three confidential informants
provided the agents with information on Vetri’s criminal
behavior. The information provided by Peron regarding
Vetri’s drug trafficking conduct was consistent with
and largely corroborated by Vandergrift’s information.
Each informant had a basis of knowledge as a co­
conspirator and provided consistent information about
their selling patterns, Vetri’s supplier, his inconsistent

App.30a
supply and his belief that Olabode was interfering
with that supply. The information provided by Vandergrift
regarding Vetri’s attempts to defraud his insurance
company by committing arson was consistent with
Santoleri’s belief that Vetri commissioned the vandal­
ism at his rental property in order to recover insurance
proceeds. Although the predicate acts are different,
both informants’ information suggested that Vetri was
committing insurance fraud. Further, Vandergrift
informed agents that Vetri had approached him about
setting fire to the Darby, Pennsylvania property, which
burned down shortly thereafter.
Agents were also able to corroborate various other
details of the informants’ information. For example,
Perone’s description of the score marks on the Oxyco­
done pills was consistent with the records of pills
ordered by Patel’s pharmacies and Special Agent
Doerrer was able to confirm Vandergrift’s account of
arson at the Chester, Pennsylvania property by exam­
ining the gasoline pour patterns evident in photographs
of the property.
At the hearing, Vetri’s counsel argued that inde­
pendent law enforcement corroboration or surveillance
was required. (Nov. 15, 2016, Hr’g Tr. at 57.) First, the
agents did in fact conduct an independent investiga­
tion that corroborated certain aspects of the informants’
information. However, to the extent that Vetri contends
that some independent basis of law enforcement corrob­
oration is always required, imposing such a require­
ment would place a burden on law enforcement greater
than that required by the Fourth Amendment. While in
Gates the Supreme Court endorsed independent police
corroboration as an important method of establishing
reliability, such corroboration is not always required

App.31a
under a totality of the circumstances analysis. See
Stearn, 597 F.3d at 555.
D.
Lastly, with respect to his argument that the
warrant was not supported by probable cause, Vetri
argues that there was not enough information con­
tained in the warrant indicating that evidence of the
described crimes would be found in his house. Here,
Vetri contends that the agents made a number of
impermissible inferences based on common knowledge.
However, as in United States v. Rankin, 442 F. Supp.
225 (E.D. Pa. 2006), the affidavit sufficiently tied the
evidence to Vetri’s home, Based on both bank records
and public documents related to Vetri’s many
companies, the agents were able to identify 403
Marsden Avenue as not only Vetri’s home, but the
address where he receives financial and business
records. These facts, together with the agents’ conclu­
sion (to which Judge Hart was entitled to give great
weight) that evidence of financial crimes is often stored
in a suspect’s home or business, provided probable
cause to search Vetri’s home. See Rankin, 442 F. Supp.
at 230 (upholding warrant to Search defendant’s home
for evidence of tax evasion and other frauds where
supported by officer’s expert conclusions that people
in defendant’s position store records in their homes
and particular facts showing the defendant received
records in his home),
IV.
Vetri further argues that the warrant was over­
broad to the extent that it permitted the seizure of cell
phones found in his home, “including searching the

App.32a

memory thereof.” Vetri’s overbreadth argument was
made in two sentences in his initial motion. “The
‘items to be seized’ was also overly broad in that it
requested defendant’s electronic devises and particu­
larly his cellphone. There is no way a warrant could
have been obtained simply for his phone.” (Mot. at 17.)
During the November 1 oral argument, counsel did not
address this argument, though the Government did,
arguing that in modern times, a cell phone “is not
really much more than a filing cabinet for digital
information,” and thus the agents were permitted to
search the cell phone for records as if it were simply a
filing cabinet in Vetri’s home. (Nov. 1, 2017, Hr’g Tr.
at 38.) The Government further pointed to nine
“communications” referenced in the affidavit that
“would at least imply that there had been telephone
calls or some communications of some sort from Mr.
Vetri to other people.” {Id)
The Court ordered supplemental briefing on this
issue. (ECF No. 137.) In his supplemental brief and at
oral argument, Vetri argued that the warrant was
facially invalid with respect to paragraph three of
Attachment B, which permits the search and seizure
of cell phones, emphasizing the evolving case law on
cell phones searches, including the Supreme Court’s
decision in Riley v. California, 134 S. Ct. 2473 (2014).
Counsel contended that in Attachment B of the search
warrant, which lists the items to be seized, the para­
graphs with respect to what the agents can seize are
specific and detailed, including information regarding
which crimes are being investigated. However, when
it came to permitting the seizure and search of Vetri’s
cell phones, the warrant merely stated that cell
phones could be seized, “including searching the

App.33a

memory thereof,” with no additional limits imposed.
(Nov. 15, 2017, Hr’g Tr. at 66, 69; see also Gov’t Ex, 1,
Search Warrant, Attachment B Tf 3.) Vetri claims that
the warrant should have included information about
the numbers assigned to certain phones or the time
period during which the phones were used, (Nov. 15,
2017, Hr’g Tr. at 67.) He therefore appears to be
arguing both that (l) inclusion of cell phones in the
warrant was not supported by probable cause and
that (2) even if the agents had a basis to search Vetri’s
cell phones, the warrant is overbroad on its face
because it did not place any restrictions on the agents’
search of the phones.
A.
In Riley, the Supreme Court confirmed what by
that point had become common knowledge, stating
that modern cell phones are a “pervasive and insistent
part of daily life” and “a significant majority of
American adults now own such phones.” 134 S. Ct, at
2484. Modern cell phones are “in fact minicomputers”
that have “immense storage capacity” and place “vast
quantities of personal information literally in the
hands of individuals.” Id. at 2489. “Even the most
basic phones that sell for less than $20 might hold
photographs, picture messages, text messages, Internet
browsing history, a calendar, a thousand-entry phone
book, and so on.” Id.5

5 Special Agent Yaeger testified that the text message conversa­
tion between Vetri and Vandergrift was recovered from an iPhone
5. (Nov. 15, 2017, Hr’g Tr. at 38-39.) “The storage capacity of the
popular Apple iPhone 5 ranges from 16GB to 64GB, which is the
equivalent of many millions of pages of text and similar to the
typical storage capacity of a home computer sold in 2004. Plus,

App.34a
The facts contained in the affidavit, together with
common sense and the agent’s reasonable inferences
about where the sought after records would be stored,
provided Judge Hart with a substantial basis for
including cell phones in the search warrant. Probable
cause “does not require absolute certainty that evidence
of criminal activity will be found at a particular place,
but rather that it is reasonable to assume that a
search will uncover such evidence.” United States v.
Yasuf, 461 F.3d 374, 390 (3d Cir. 2006); see also United
States v. Hawkins, No. 1:11CR61, 2014 WL 7335638,
at *8 (W.D. Pa. Dec. 19, 2014) (“When analyzing the
existence of probable cause, the focus must be on
‘factual and practical considerations of everyday life on
which reasonable and prudent men, not legal tech­
nicians, act.’”) (quoting Gates, 462 U.S. at 231).
Special Agent Doerrer stated that, based on his ex­
tensive experience and training, defendants who
engage in the described crimes “often utilize . . .
electronic equipment such as computers,... telephone
answering machines and pagers to generate, transfer,
count, record and/or store the information described
above.” (Gov’t Ex. 1, Search Warrant Affidavit f 60c.)
Giving due deference to Doerrer’s conclusion, and con­
sidering it together with the factual allegations con­
tained in the affidavit, the types of records and docu­
ments which the agents sought, and common
knowledge about the functions and abilities of modern

the capacity and speed of cell phones is not fixed. Every year
witnesses the introduction of new models with more speed, more
capacity, and better features.” Orin S. Kerr, Foreword:
Accounting for Technological Change, 36 Harv. J.L. & Pub. Pol’y
403, 404-05 (2013).

App.35a

day cell phones, Judge Hart had a substantial basis
for including cell phones in the warrant.®
B.
Further, the warrant was not invalid on its face
because, viewed in its entirety, it placed limits on the
parameters of the agents’ search of the phone. A
warrant which authorizes the “general exploratory
rummaging in a person’s belongings” is overbroad and
unconstitutional. United States v. Christine, 687 F.2d
749, 754 (3d Cir. 1982) (quoting Coolidge v. New
Hampshire, 403 U.S. 443, 467 (1971)). “A warrant is
not unconstitutionally general ‘unless it can be said to
vest the executing officer with unbridled discretion to
conduct an exploratory rummaging ... in search of
criminal evidence.’” United States v. Karrer, 460 Fed.
Appx. 157, 161 (3d Cir. 2012) (quoting United States
v. Leveto, 540 F.3d 200, 211 (3d Cir. 2008)). To avoid
such searches, warrants must specify with
particularity the places to be searches and the items
to be seized. U.S. Const, amend. IV; Fed. R. Crim. P.
41(e)(2) (“[T]he warrant must identify the .. . property
to be searched” and “identify any . . . property to be
seized.”).
Vetri’s concern appears to be that paragraph
three of Attachment B, standing alone, does not limit
the parameters of the agents’ search or specify with
particularity the items for which the agents were per-

® Unlike cases in which the search of a cell phone is contested as
being outside the scope of a validly issued warrant that did not
directly permit a search of the phone’s content, the warrant in
this case specifically included authorization to search cell phones
even before Riley.

App.36a

mitted to search. The warrant in this case did not per­
mit the agents to go “rummaging through” the cell
phones with “unbridled discretion” looking for all
evidence of criminality. While paragraph three provides
for the seizure of “[clellular telephones (including
searching the memory thereof),” other paragraphs of
Attachment B described with particularity the docu­
ments and records that the agents were authorized to
search for and seize. Interpreting the warrant in the
requisite common sense and nontechnical manner, it
was not invalid on its face just because paragraph
three did not repeat the specific search parameters
contained in the adjoining paragraphs.
V.
Even if Judge Hart lacked a substantial basis for
finding probable cause, or the Court were to find that
more specificity was required, the evidence obtained
in the search of Vetri’s home is admissible under the
good faith exception to the exclusionary rule. See
United States v. Leon, 468 U.S. 897 (1984). “The test
for whether the good faith exception applies is ‘whether
a reasonably well trained officer would have known
that the search was illegal despite the [issuing
judge’s] authorization.’” Hodge, 246 F.3d at 307
(quoting United States v. Loy, 191 F.3d 360, 367 (3d
Cir. 1999)). “To trigger the exclusionary rule, police con­
duct must be sufficiently deliberate that exclusion can
meaningfully deter it, and sufficiently culpable that
such deterrence is worth the price paid by the justice
system.” United States v. Franz, 772 F.3d 134, 145 (3d
Cir. 2014) (quoting Herring v. United States, 555 U.S.
135, 144 (2009)). Thus, the exclusionary rule does not
apply to “evidence obtained during a search ‘when an

App.37a

officer acting with objective good faith [ ] obtained a
search warrant from a judge or magistrate and acted
within its scope.’” United States v. Tracey, 597 F.3d
140,150 (3d Cir. 2010) (quoting Leon, 468 U.S. at 91920).
“Where the alleged Fourth Amendment violation
involves a search or seizure pursuant to a warrant, the
fact that a neutral magistrate has issued a warrant is
the clearest indication that the officers acted in an
objectively reasonable manner, or in ‘objective good
faith.’” Messerschmidt v. Millender, 565 U.S. 535, 546
(2012) (quoting Leon, 468 U.S. at 922-23). The Third
Circuit has identified four narrow situations where
reliance on a warrant is unreasonable and the good
faith exception does not apply:
(1)

[when] the magistrate [judge] issued the war­
rant in reliance on a deliberately or recklessly
false affidavit;

(2)

[when] the magistrate [judge] abandoned his
judicial role and failed to perform his neutral
and detached function;

(3)

[when] the warrant was based on an affidavit
“‘so lacking in indicia of probable cause as to
render official belief in its existence entirely
unreasonable’”; or

(4)

[when] the warrant was so facially deficient
that it failed to particularize the place to be
searched or the things to be seized.

Hodge, 246 F.3d at 308 (quoting United States v. Will­
iams, 3 F.3d 69, 74 n.4 (3d Cir. 1993)); see also Stearn,
597 F.3d at 561 (“In ‘narrow circumstances,’ . . . the
good faith doctrine is not sufficient to override the

App.38a

warrant’s lack of probable cause.”). Further, in Herring,
the Supreme Court held that “[i]f the police have been
shown to be reckless in maintaining a warrant
system, or to have knowingly made false entries to lay
the groundwork for future false arrests, exclusion
would certainly be justified ... should such misconduct
cause a Fourth Amendment violation.” 555 U.S. 135,
146 (2009).
Vetri contends that the good faith exception
should not apply because “law enforcement knew that
the warrant was dated, not corroborated, and over­
broad to make a ‘colorable showing’ of probable cause
to search the residence.” (Mot. at 19.) This argument
implicates the third, and potentially the fourth, situa­
tion above but falls far short of bringing this case
within any of the narrow exceptions. As in Steam, the
affidavit in this case was a far cry from “bare bones”
for the reasons articulated above. 597 F.3d at 562.
Even if the Court were to find a substantial basis
lacking, the detailed affidavit which described a
myriad of criminal conduct spanning more than four
years is not “so lacking in indicia of probable cause as
to render official belief in its existence entirely
unreasonable” and to require the suppression of the
evidence found during the search. Hodge, 246 F.3d at
308.
Further, the warrant did not fail to particularize
the place to be searched or the things to be seized such
that it was clearly “facially deficient.” This is apparent
from Special Agent Yaeger’s testimony at the
evidentiary hearing that the agents searched Vetri’s
phone for the financial records described in the
warrant, and understood their search to be so limited,
Agent Yeager testified that he “relties] on the warrant

App.39a

as it’s stated. In this case . . . Attachment B would be
my primary guidance. . . . what’s listed on the warrant
face sheet and in the attachment about what you can
search for.” (Nov. 15, 2017, Hr’g Tr. at 44.) Further,
on cross-examination, he stated that when reviewing
the files, he looked to see whether it “relate [d] to one
of the enumerated crimes” or whether it was “one of
the specifically enumerated file types.” {Id. at 47.)
An appropriate Order follows.
BY THE COURT:
/si Gerald J. Pappert
Judge

App.40a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF PENNSYLVANIA
(NOVEMBER 8, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA,
v.
MITESH PATEL, ANTHONY VETRI,
MICHAEL VANDERGRIFT,
Defendants.
Criminal Action No. 15-157
Before: Gerald J. PAPPERT, Judge.
AND NOW, this 8th day of November 2017, upon
consideration of Defendant Vetri’s Motion to Suppress
Evidence (ECF No. 109), the Government’s Response
(ECF No. 123), and oral argument on the Motion (ECF
No. 13l), it is hereby ORDERED that:
1. An evidentiary hearing will be held on Novem­
ber 15. 2017, at 2:00 p.m„ in a courtroom to be deter­
mined, on the issue of whether the search of Vetri’s
cell phone was impermissibly broad in light of the
scope of the warrant and the evidence authorized to
be seized.

App.41a

2. On or before November 13. 2017. the parties are
to submit supplemental briefing on the issue of
whether the search of Vetri’s cell phone was overbroad,
including:
a.

The parameters of the search conducted of
the cell phone and evidence seized as a result
thereof; and,

b.

Identification of the specific evidence Vetri is
seeking to suppress.
BY THE COURT:
/s/ Gerald J. Pannert
Judge

App.42a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
DENYING PETITION FOR REHEARING
(JUNE 11, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA
v.
ANTHONY VETRI,
Appellant.
No. 18-2372
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-15-cr-00157-002)
District Judge: Honorable Gerald J. Pappert
Before: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, and
PHIPPS, Circuit Judges.
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the

App.43a

circuit in regular active service, and no judge who con­
curred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
/s/ Thomas M. Hardiman
Circuit Judge
Dated: June 11, 2020
CJG/cc: Bernadette A. McKeon, Esq.
Jonathan B. Ortiz, Esq.
David E. Troyer, Esq.
Peter Goldberger, Esq.

Additional material
from this filing is
available in the
Clerk's Office.

